<html>
<title> - OVERSIGHT HEARING: NRC'S IMPLEMENTATION OF RECOMMENDATIONS FOR ENHANCING NUCLEAR REACTOR SAFETY IN THE 21ST CENTURY</title>
<body><pre>[Senate Hearing 112-976]
[From the U.S. Government Publishing Office]


                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         





                                                        S. Hrg. 112-976

    OVERSIGHT HEARING: NRC'S IMPLEMENTATION OF RECOMMENDATIONS FOR 
          ENHANCING NUCLEAR REACTOR SAFETY IN THE 21ST CENTURY

=======================================================================

                             JOINT HEARING

                               before the

                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                and the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 12, 2012

                               __________

  Printed for the use of the Committee on Environment and Public Works




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov
         
         
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-112 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
              
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

                Bettina Poirier, Majority Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

                  THOMAS R. CARPER, Delaware, Chairman
MAX BAUCUS, Montana                  JOHN BARRASSO, Wyoming
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 MIKE JOHANNS, Nebraska
BARBARA BOXER, California (ex        JAMES M. INHOFE, Oklahoma (ex 
    officio)                            officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 12, 2012
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     4
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..     5
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     7
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     9

                               WITNESSES

Macfarlane, Hon. Allison M., Chairman, U.S. Nuclear Regulatory 
  Commission.....................................................    10
    Prepared statement...........................................    13
    Responses to additional questions from:
        Senator Boxer............................................    21
        Senator Carper...........................................    42
        Senator Inhofe...........................................    45
Svinicki, Hon. Kristine L., Commissioner, U.S. Nuclear Regulatory 
  Commission.....................................................    68
    Responses to additional questions from:
        Senator Boxer............................................    69
        Senator Inhofe...........................................    72
Apostolakis, Hon. George, Commissioner, U.S. Nuclear Regulatory 
  Commission.....................................................    76
Magwood, Hon. William D., IV, Commissioner, U.S. Nuclear 
  Regulatory Commission..........................................    77
    Responses to additional questions from:
        Senator Boxer............................................    79
        Senator Inhofe...........................................    84
Ostendorff, Hon. William C., Commissioner, U.S. Nuclear 
  Regulatory Commission..........................................    89

 
    OVERSIGHT HEARING: NRC'S IMPLEMENTATION OF RECOMMENDATIONS FOR 
          ENHANCING NUCLEAR REACTOR SAFETY IN THE 21ST CENTURY

                              ----------                              


                     WEDNESDAY, SEPTEMBER 12, 2012

                               U.S. Senate,
         Committee on Environment and Public Works,
                   joint with the Subcommittee on Clean Air
                                         and Nuclear Safety
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(Chairman of the Committee) presiding.
    Present: Senators Boxer, Inhofe, Lautenberg, Carper, 
Cardin, Alexander, and Barrasso.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The meeting will come to order.
    What I want to do right before we start is to have a moment 
of silence for our Ambassador to Libya who was killed and three 
other Foreign Service officers. We know that our military and 
our Foreign Service officers put their lives on the line every 
single day. So let's take one moment.
    [Moment of silence.]
    Senator Boxer. Today the Environment and Public Works 
Committee is holding its seventh oversight meeting on the 
Nuclear Regulatory Commission since the earthquake, tsunami, 
and nuclear meltdown in Japan in March 2011. The consequences 
of those terrible events have prompted us to rethink how to 
ensure safety at the 104 nuclear reactors in the United States.
    Last year the NRC created a task force to review our 
nation's safety requirements. And that task force made 12 
recommendations to help prevent a similar disaster at nuclear 
facilities in the U.S. Earlier this year the NRC sent three 
orders to nuclear plants requiring high priority safety 
improvements, the acquisition and protection of emergency 
equipment, better monitoring of spent fuel pools, and improved 
venting at boiling water reactors to help maintain containment 
in the case of an emergency.
    The NRC also directed nuclear plants to take other actions, 
including reanalyzing earthquake and flooding risks and re-
assessing their ability to safely operate following such 
events. In addition, the Commission issued two notices of 
proposed rulemaking, one concerning steps plants should take if 
they lose electric power and the other on ways to improve 
nuclear plants' emergency procedures.
    While on the one hand I am encouraged that the NRC has 
begun moving forward, I also have concerns that the Commission 
is allowing some nuclear plants to delay implementing safety 
improvements beyond the recommended 5-year period. Public 
safety of nuclear facilities must be the NRC's top priority, 
and I call on this Commission to ensure that the recommended 
improvements are put in place within the next 5 years. I intend 
to do my best on this Committee to make certain that these 
safety upgrades are completed without delay.
    I also want to talk about an urgent matter in my home State 
of California that is extremely close to my heart. The San 
Onofre Nuclear Generating Station is located near San Clemente, 
and 8.7 million people live within 50 miles of that site. This 
nuclear plant, which is currently offline, has experienced 
unexpected deterioration with the tubes that carry radioactive 
water in the plant's new steam generators. This situation could 
pose health and safety risks, because if those tubes leak or 
rupture, they could release radiation at levels that exceed 
safety standards.
    I am pleased that the NRC has undertaken an investigation 
regarding the problems at San Onofre. Today I want to make 
certain--and I will be asking all of you--I want to make 
certain that the Commission continues to pay serious attention 
to this nuclear facility. Let me be clear: it is your duty to 
ensure that the appropriate actions are taken to address safety 
concerns related to the compromised tubes before San Onofre's 
reactors are permitted to go back online. The San Onofre 
reactors must not be restarted until the NRC's investigation is 
completed and the public has been assured of the plant's 
safety.
    The NRC was created ``to ensure the safe use of radioactive 
materials while protecting people and the environment.'' The 
millions of people who live near San Onofre deserve to have 
peace of mind.
    It is critical that the NRC conduct this investigation at 
San Onofre in an open and transparent way. I am very pleased 
that the Commission has scheduled a public meeting in 
California in October. Today I want assurances that this 
meeting is on track and will take place.
    I also want to remind the Commissioners sitting here today 
about their commitments to me that the NRC will determine 
whether SoCal Edison was in full compliance with the 
regulations regarding the redesigned steam generators. We also 
need to evaluate whether the NRC regulations should be changed 
to avoid a similar situation in the future.
    I will continue to work with the NRC to ensure safety 
issues at San Onofre and other plants across the nation. I do 
look forward to hearing from the Commissioners about the 
progress that has been made to implement safety changes 
resulting from the lessons learned from Fukushima.
    Before turning to Ranking Member Inhofe for his opening 
statement, I would like to say a special welcome to Dr. Allison 
Macfarlane, who is testifying before this Committee for the 
very first time as the new NRC Chairman. We welcome you.
    And now I turn to Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chair. Let me apologize to 
our five guests that I will have to be leaving right after my 
opening statement because of a commitment that I have. But I am 
very excited to see all five faces in front of us now in a 
spirit of collegiality that I think has been needed. We are 
looking forward to working with you, particularly Chairwoman 
Allison Macfarlane. I am just very excited to have you, and of 
course you, too, Ms. Svinicki.
    Right now, we have been pretty busy over the last year. And 
for the first time in some 30 years now, new licenses to build 
two reactors were issued by the Commission. So good things are 
happening. When you look at the concern people have about our 
ability to produce our own energy in this country, recognizing 
the fact that we have the largest recoverable reserves in coal, 
oil, and gas, it is something where we can see the day when we 
are not going to have this reliance, whether it is Hugo Chavez 
or the Middle East.
    Then of course, nuclear has to be a part of it, and it is 
going to be a very significant part of it. I am very excited to 
see what we are going to be doing. So between nuclear, oil, 
gas, coal, hydro power, and renewable, we are going to do great 
things.
    Ensuring the safe use of nuclear energy is a very serious 
job. That is why unlike many countries, way back in the 1970s, 
Congress established the NRC, the independent commission, and 
charged five Commissioners with the responsibility to protect 
the public health and safety. We saw what happened at 
Fukushima. We are all committed to ensuring that the United 
States nuclear power plants will not experience a similar 
accident.
    That is why we have safeguards in place that would have 
prevented such a disaster here in the United States. For 
example, the Fukushima nuclear accident independent 
investigation committee formed by the Japanese government 
reported that the Japanese plants are not required to consider 
a possible station blackout scenario, something the NRC 
instituted here in the United States way back in the 1980s. 
This report concluded that ``The accident may have been 
preventable'' if an order already required by the NRC following 
the September 11th terrorist attack was instituted in Japan.
    So to all the Commissioners and the new Chairman, I am 
pleased to see what is going to be happening here. We are 
looking forward to great things. And we are going to continue 
to have, through our Subcommittee, oversight hearings to be 
sure we stay on the schedule that we commit to. I always 
remember actually back when Republicans were majority and I 
chaired that Nuclear Subcommittee, at that time, we had not had 
an oversight hearing in some 5 years. And oddly enough, it was 
the members of the NRC that wanted oversight hearings. So we're 
going to be able to do that, work together and make nuclear a 
very important part of our energy package.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Thank you, Chairman Boxer, for holding this hearing and 
focusing on implementing the lessons learned from Fukushima. 
The efforts will ensure that the safety of nuclear plants in 
the U.S.--and around the world--will be enhanced and the use of 
nuclear energy will be sustained over the long term.
    First, I would like to welcome Chairwoman Macfarlane to the 
Nuclear Regulatory Commission (NRC) and welcome her to the EPW 
hearing room in her new, official capacity. You have big 
challenges ahead, and everyone here on this Committee has high 
hopes that you will be able to restore the collegial working 
environment at the Commission.
    The NRC has been busy over the past year. For the first 
time in over 30 years, new licenses to build two reactors were 
issued by the Commission. In March the Commission issued orders 
to implement the most significant post-Fukushima improvements. 
I am pleased that under Chairwoman Macfarlane the Commission is 
focusing on its mission of nuclear safety without unnecessary 
distractions.
    Our country needs affordable energy for any sustained 
economic growth. As a nation, we have the ability to produce 
this energy domestically, but nuclear must have a seat at the 
table for an all of the above energy policy that includes oil, 
gas, coal, hydropower, and renewable energy.
    Ensuring the safe use of nuclear energy is a very serious 
job. That is why, unlike many other countries, Congress 
established the NRC, an independent commission, and charged 
five commissioners with the responsibility to protect public 
health and safety. We saw what happened at Fukushima, and we 
are all committed to ensuring that a United States nuclear 
power plant will not experience a similar accident. That is why 
we have safeguards in place that would have prevented such a 
disaster here in the United States. For instance, the Fukushima 
Nuclear Accident Independent Investigation Commission (formed 
by the Japanese government) reported that the Japanese plants 
are not required to consider a possible station blackout 
scenario--something the NRC instituted in the 1980s. This 
report concluded that ``the accident may have been 
preventable'' if an order already required by the NRC following 
the September 11, 2001, terrorist attacks on the U.S. was 
instituted by the Japanese.
    No one--on either side of the aisle--in Congress is willing 
to accept anything other than the safe operation and regulatory 
compliance of the country's commercial nuclear power plants. 
Throughout the NRC's history, we have applied lessons learned 
from nuclear and non-nuclear events. At the same time, the NRC 
has the vital responsibility to determine the cumulative 
effects that its regulations actually have on safety. It is 
important that regulations provide significant, tangible, and 
necessary safety benefits that warrant the costs--costs that 
are ultimately borne by consumers.
    To all of the Commissioners, and the new Chairman, I am 
pleased to see that debates and the free flow of information 
seem healthy and respectful again. Combined, your actions are 
critical to ensure the safe operation of the nuclear power 
plants across this country. The nation is also counting on you 
to prevent the imposition of an unpredictable or unnecessary 
regulatory burden that undermines nuclear energy economically, 
and avoid the way EPA regulations are driving the premature 
shutdown of coal-fired power plants.
    It can continue to be a new day for the NRC, and it is up 
to you to uphold the NRC's reputation for reasoned and balanced 
regulation.

    Senator Boxer. Thank you very much, Senator. And we will 
miss you.
    Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Madam Chairman.
    Nuclear energy is critical to meeting our nation's energy 
needs. An emissions-free energy source, now providing one-fifth 
of America's electricity. In New Jersey, our four nuclear power 
reactors provide our State with more than half of its 
electricity.
    But as we saw with the disaster in Japan last year, there 
are also many reasons for caution. The crisis in Japan left 
every American concerned: could it happen here? The Nuclear 
Regulatory Commission's Task Force studied this situation 
closely and determined that our nuclear facilities pose no 
imminent threat to the American people. While this is 
reassuring news, it was also clear that we needed to do more to 
improve nuclear safety here.
    The NRC's Task Force issued 12 recommendations to 
strengthen nuclear preparedness and protect plants when 
earthquakes and other natural disasters occur. Since they 
issued these recommendations, the Commission has taken real 
steps to ensure our reactors are more secure.
    But some have raised concerns that we must do more and move 
more quickly. Let me be clear: when it comes to safety, we all 
agree that we cannot afford unnecessary delays. In addition to 
operating plants safely, the United States needs to have an 
effective policy--which I know that you are working on--for 
disposing and storing spent nuclear fuel. Right now, most 
nuclear power plants store more than 1,000 tons of nuclear 
waste in spent fuel pools onsite. Not a sustainable position.
    At New Jersey's reactors, nuclear waste is stored onsite. 
Some of it is in dry cask storage and some if it is spent fuel 
pools, which rely on a steady supply of water and electricity. 
In Japan, when the earthquake and tsunami knocked the power 
out, we saw rescue workers desperately spraying water from fire 
hoses into the spent fuel pools. More than a year later, there 
are still serious concerns about the safety of spent fuel at 
Fukushima.
    One thing is clear: we have to find a better and safer way 
to store nuclear waste, to ensure that a disaster like the one 
that took place in Japan never happens here. It means finding 
more secure ways to store fuel onsite, finding agreeable places 
to store national spent fuel, and making certain that these 
sites have long-term viability. Nuclear power must be part of 
our energy future.
    But the disaster in Japan has taught us that nothing can be 
taken for granted where nuclear power is concerned. Japan's 
leaders believed the Fukushima plant was strong enough to 
withstand a worst case scenario. But as we now know, it wasn't. 
Likewise, going back years, Chernobyl taught us that the 
effects of a single nuclear accident can linger for 
generations. We have to learn from these lessons, learn from 
other mistakes. I thank the Commissioners--you do a good job--
for coming today to testify. I am eager to hear about the NRC's 
ongoing efforts.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you, Senator Lautenberg.
    And it is Senator Alexander next.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thanks, Madam Chairman.
    Madam Chairman, thank you for holding this hearing. My view 
is that the more the American people hear about and know about 
nuclear power, the more confident they will be in the system 
that we have. So I welcome our Commissioners and am glad you 
are here.
    Several Senators visited Germany and Sweden over the last 
few days. It made me grateful that we have, as Senator 
Lautenberg said, 20 percent of our electricity produced by 
nuclear power and 70 percent of our emissions-free electricity 
produced by nuclear power. It is done in historically a safe 
way.
    The reason these hearings are important is the production 
of energy by nuclear power has been our safest method of energy 
production, but it is complex. And people need to know what 
we're doing and understand what we're doing.
    The lessons that we received in Sweden and Germany are 
instructive to us. Sweden on one hand, half their power is 
nuclear. Half their power is hydro. So they have absolutely 
clean electricity. And they have cheap electricity. And they 
have a repository which the communities in Sweden competed to 
win, and there is a picture of the mayor who won with a happy 
face and the mayor who lost with an unhappy face. So we could 
learn from Sweden.
    Germany, right next door, has an energy mess on its hands. 
They are closing their nuclear power plants. They are still 
buying nuclear energy from France, so that they will have 
enough energy, electricity for their big industrial state. They 
are building coal plants, and they are building gas plants, 
even though gas in Europe costs four or five times what it 
costs here. And one reason they are building gas plants is to 
have electricity when the windmills don't blow, which makes you 
wonder, well, why do you have windmills if you are going to 
build gas plants.
    So their officials told us that if you want cheap energy, 
don't come to Germany. So you can go to Sweden, or you can come 
to the United States, where we have a mixture of energy and a 
pretty good energy policy, I would say, based upon the free 
market with environmental regulations amended to that, which 
are producing right now a lot of reliable, low cost, cheap 
electricity and energy. That is a great boon to job growth over 
the future.
    So your job, making sure that our 104 reactors continue to 
operate well and safely, is important.
    In another hearing today, Senator Bingaman is introducing a 
bill to help us find a long-term repository for nuclear spent--
for used fuel. We need to do that. Senator Feinstein and I, 
Senator Murkowski, and Senator Bingaman have been working this 
year to do it. We have made a lot of progress; we have a little 
difference, the three of us do, with Senator Bingaman on 
exactly one or two provisions of his legislation.
    But whether you are for Yucca Mountain or against Yucca 
Mountain, we need a new repository. Because if we took all the 
stuff we have today at our 104 sites and put it at Yucca 
Mountain, it would nearly fill it up. So we need consolidation 
sites, especially Senator Boxer, for plants that might already 
be closed. We could move the fuel from there. And we need a 
long-term repository.
    So I hope this Commission will continue to make that a top 
priority as we work together with the Congress and the 
Administration to move ahead on parallel tracks to find 
consolidation sites for spent fuel that is at our nuclear power 
plants and seeing that it is safe. And the Chairman, the 
previous Chairman said it would be safe for 100 years there. 
But that is not where it is supposed to be for 100 years. It is 
supposed to be in a long-term repository. And as I said, 
whether you are for or against Yucca Mountain, we need another 
one and we need consolidation sites.
    Finally, I look forward to hearing from you in the question 
and answer session about your support for innovation and 
nuclear power. The Congress and the President are supporting 
small reactors. That is an important part of our ability to 
have plenty of reliable, clean electricity in the future in 
this country. We would like to be a leader in that area in the 
world, first, because it does provide jobs. But second, it 
simply provides another--perhaps better--way to produce clean 
electricity that is reliable over time.
    And as a good citizen of the world, we have such good 
safety standards here that if we do a good job with small 
reactors, those practices will be exported in the world like 
many of our practices have been for our large reactors and our 
nuclear reactors on our Navy ships.
    So I welcome this, and I thank the Chairman very much for 
the hearing, and I hope we continue to have them regularly.
    Senator Boxer. Thank you so much, Senator, and that would 
be my intention.
    Now we are going to hear from Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Madam Chair.
    To our Commissioners, welcome. I see broad smiles here 
before us today, Madam Chairman, and I would say it looks like 
a friendlier, happier group than I recall gathered before us in 
the past. So we welcome that as well.
    I want to express our thanks to our new Chairman, Chairman 
Macfarlane, who I believe was sworn into office in July, and to 
congratulate Commissioner Svinicki, who I believe was sworn in 
for a second term; was that in July as well? OK, thank you.
    Congratulations to both of you. Thanks for your willingness 
to take on this responsibility and your willingness to extend 
your stay on this Commission. It is important work, as you 
know.
    Currently, our country has some 104 nuclear power plants 
operating in I think about 31 States, with an additional 5 that 
are under construction and will come online, I hope, sometime 
in the next several years. Collectively, as others have said, 
these 104 nuclear plants provide about roughly 20 percent of 
the energy that we use in this country. I think maybe Senator 
Lautenberg was implying, and some others have said, that that 
energy comes with some special benefits. One, no carbon dioxide 
emissions; two, no sulfur dioxide emissions; three, no mercury 
emissions. And that is good; that is really good. We need to 
keep that in mind.
    But the energy from all those plants has helped to curb our 
nation's reliance on fossil fuels, and it has helped reduce our 
air pollution and the damages it causes to health and global 
warming. We are especially mindful of that, Senator Lautenberg 
and I are, and Senator Cardin, as downwind States from all that 
pollution that is put up in the Midwest and just blows our way 
and fouls our air. And frankly, there is not a lot we can do 
just by our own about it. But nuclear energy helps relieve 
that.
    But as far as the benefits of nuclear power, we have seen 
from the crisis at the Japanese Fukushima Daiichi district, the 
damage that nuclear power can cause if not properly regulated. 
Safety must always be our top priority when it comes to nuclear 
energy. That is why the Fukushima accident and before, this 
Committee has exercised its oversight repeatedly, as Senator 
Inhofe has suggested, to ensure that our nation's nuclear power 
plants are prepared for the worst. We want to make sure that 
our nuclear power plants can respond effectively in any crisis 
to protect the American public.
    I was reassured when the NRC concluded that an accident 
like Fukushima is unlikely to happen in the United States and 
that our nuclear fleet poses no imminent risk to public safety. 
This is due in part to the diligence of the NRC to public 
safety. But as my colleagues have heard me say over and over 
and over and over again, if it isn't perfect, make it better. 
And since our hearing last March, the NRC has required the 
implementation of several actions at our nuclear power plants 
in light of the lessons learned from Fukushima. The NRC has 
also required nuclear power plants to investigate and report 
back ways we can further enhance flood and earthquake 
protection at our 104 reactors.
    Today we look forward to hearing an update from the NRC 
Commissioners regarding their practice and progress. I 
sincerely hope that the Commission will continue to have a 
dialogue with key stakeholders and seek public input from all 
sides of these issues as the recommendations are being 
implemented. However, I will be very disappointed if by the 
second anniversary of the Fukushima accident, which will be, I 
believe, March 11th, 2013, our nuclear power plants are not 
where they are supposed to be according to the schedule the 
Commission has laid out.
    As I continue to support the pursuit of raw, clean energy--
all clean energy--our top priority for domestic nuclear power 
industry remains public safety. We all know that we can do 
better. And that is the responsibility that this Committee 
shares with you.
    The NRC is moving forward to ensure that the U.S. nuclear 
industry continues to improve its safety and preparedness 
efforts. Part of that job, our job, is to make sure that that 
happens.
    Thank you, Madam Chair.
    And again, welcome.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    Let me begin by welcoming back the Nuclear Regulatory 
Commission's (NRC's) Commissioners to our Committee. I 
appreciate you taking the time to be before us today. In 
particular, I want to welcome Chairman Macfarlane who was sworn 
into office last July. This is her first appearance before this 
Committee as Chairman of the NRC. Welcome.
    Currently, our country has 104 nuclear power reactors 
operating in 31 States, with an additional 5 that are under 
construction and that will come online, hopefully, within the 
next several years. Collectively, these nuclear power plants 
generate approximately 20 percent of our nation's total 
electric consumption.
    The energy from these nuclear power plants has helped curb 
our nation's reliance on dirty fossil fuels and has helped 
reduce our air pollution that damages health and causes global 
warming. Despite the benefits of nuclear power, we have seen 
from the crisis at the Japanese Fukushima Daiichi facility the 
damage that nuclear power can cause if not properly regulated.
    Safety must always be our top priority when it comes to 
nuclear energy. That is why since the Fukushima accident--and 
before--this Committee has exercised its oversight authority 
repeatedly to ensure that our nation's nuclear power plants are 
prepared for the worst. We want to make sure that our nuclear 
power plants can respond effectively in any crisis to protect 
the American public.
    I was reassured when the NRC concluded that an accident 
like Fukushima is unlikely to happen in the United States and 
that our nuclear fleet poses no imminent risk to public safety. 
This is due in part to the due diligence of the NRC to public 
safety. But as my colleagues have heard me say over and over, 
if it is not perfect, make it better.
    Since our hearing last March, the NRC has required the 
implementation of several safety actions at our nuclear power 
plants in light of the lessons learned from Fukushima. The NRC 
has also required our nuclear power plants to investigate and 
report back ways we can further enhance flood and earthquake 
protections at our 104 reactors. Today, I look forward to 
hearing an update from the NRC Commissioners regarding their 
progress.
    I sincerely hope the Commission will continue to talk to 
stakeholders and get public reaction--from all sides of these 
issues--as the recommendations are being implemented. However, 
I will be very disappointed if by the second anniversary of the 
Fukushima accident--which will be March 11, 2013--our nuclear 
power plants are not where they are supposed to be according to 
the schedule the Commission has laid out.
    As I continue to support the pursuit of all clean energy, 
my top priority for our domestic nuclear power industry remains 
public safety. We all know we can do better, and the NRC is 
moving forward to ensure that the U.S. nuclear industry 
continues to improve its safety and preparedness efforts.

    Senator Boxer. Thank you.
    I am going to call on Senator Barrasso, but before I do, I 
want to apologize, it was so very warm in here. We have had 
issues this morning. So without having a Commission meeting, I 
opened up all the doors. And I think it is feeling better. 
There must be a message in that, but we will figure it out.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you, Madam Chairman. I would also 
like to thank and welcome all the Commissioners here today.
    According to the Department of Energy, nuclear power 
provided about 19 percent of total U.S. utility scale 
electricity last year. The Department of Energy projects that 
America needs 40 to 50 large nuclear plants to be built and 
start operating within the next 20 years for nuclear power to 
maintain or increase its share of the U.S. electricity supply.
    The fact is, we need to maintain and improve our nuclear 
industry. The only way we can do that is to promote responsible 
policies and regulations that protect public safety while 
maintaining nuclear share of our electricity output. We need to 
make America's nuclear reactors as safe as we can as feasibly 
as we can, while growing this important energy source. After 
the nuclear disaster at Fukushima, the American people want to 
know that nuclear safety is improved. The American people want 
us to ensure that there will not be a repeat of such a disaster 
in Japan here in the United States, that communities across 
America are safe from harm, that the Nuclear Regulatory 
Commission is tasked with protecting us. It is not a 
responsibility, I know, that any of you are taking lightly.
    The incident at Fukushima has led to a process at NRC of 
developing recommendations to improve nuclear safety here in 
the United States. The Commission has decided upon those 
recommendations that are most significant, that has established 
a path that leads to timely implementation. Now it is incumbent 
upon the Commission to ensure that those who must implement 
those recommendations are able to do so without impeding the 
growth of much needed nuclear power.
    A good step toward that goal is that the Commission appears 
to be regaining some measure of collegiality and strength lost 
during the reign of the previous Chairman. As many of you know, 
the President's former Chairman resigned under fire. As a 
result, the Commission must now improve the process of 
permitting and licensing of nuclear power plants, a process the 
former Chairman slowed down by so frequently disagreeing with 
the bipartisan majority of Commissioners.
    Having turned the page with new leadership, the Commission 
must stick to its convictions so that the so-called Tier One 
recommendations be properly implemented. The Commission should 
not be distracted by the desires of some who wish to drive the 
resolution of all recommendations to suit an artificially 
established deadline.
    This collegial process needs to continue to be restored as 
the Commission returns to its traditional independent and 
respected role. The NRC must operate within procedures that are 
agreed upon in a professional and collegial manner. Doing so 
will ensure that Americans know that we will be protected from 
harm while having our energy needs met well into the future.
    Again, thank you, Madam Chairman. I look forward to the 
testimony.
    Senator Boxer. We are going to turn to our Commissioners, 5 
minutes for the Chairman, 3 minutes for everyone else who would 
like to be heard. Welcome again.

      STATEMENT OF HON. ALLISON M. MACFARLANE, CHAIRMAN, 
               U.S. NUCLEAR REGULATORY COMMISSION

    Ms. Macfarlane.Thank you very much, Senator Boxer.
    Chairman Boxer, Ranking Member Inhofe, Chairman Carper, 
Ranking Member Barrasso, and members of the Committee, my 
colleagues and I are honored to appear before you today on 
behalf of the U.S. Nuclear Regulatory Commission.
    Having appeared before you in June as a nominee, I want to 
thank you for confirming me and for your careful oversight of 
the NRC.
    I look forward to today's hearing, my first before you as 
NRC Chairman. I am pleased to join with my fellow Commissioners 
to discuss the critical policy issues facing our agency.
    Two months into my tenure, I have a much better sense of 
the agency and its dedicated staff. I have spent many hours in 
meetings and briefings on the issues currently before the 
agency, both at NRC headquarters and at our four regional 
offices, three of which I have now visited. The fourth is 
tomorrow.
    I have also informally walked the floors of our 
headquarters building, eaten lunch with our personnel in the 
cafeteria, and met them in the gym. I have been consistently 
impressed by the seriousness with which the NRC staff approach 
their mission of protecting the safety of the American people 
and the enthusiasm they have for their work, and I have been 
touched by the warmth with which I have been welcomed by them.
    I also appreciate the sincere welcome that I have received 
from my colleagues on the Commission, and I deeply value our 
working relationship. I am meeting with each Commissioner 
regularly, seeking their views on major issues facing the 
agency and benefiting from their expertise. I look forward to a 
sustained collegial relationship with them.
    I am committed to maintaining open lines of communication 
and a respect for their perspectives, insights, and best 
judgment. I believe that by working together collegially, the 
product of our efforts as a Commission will be stronger and 
much more protective of the public interest.
    I also look forward to working with this Committee and with 
the Congress. I inherited a backlog of congressional 
correspondence when I arrived at the NRC, and I am pleased to 
report that this backlog is now clear.
    Since arriving at the NRC, I have found an organizational 
culture that promotes an open, collaborative work environment, 
encourages all employers and contractors to share concerns and 
differing views without fear of negative consequences, and 
encourages any employee to initiate a meeting with an NRC 
manager or supervisor, including a Commissioner or the 
Chairman, to discuss any matter of concern.
    I am determined that these organizational commitments will 
continue under my leadership. I believe these values are worthy 
of highlighting as we reinforce our agency's focus on its 
critical mission of safeguarding the public's health, safety, 
and security and protecting the environment. These values are 
especially pertinent at a time when the agency is dealing with 
a wide array of critical safety matters. It is in this context 
that we update you on the NRC's implementation of the safety 
enhancements following the Fukushima Daiichi accident.
    With everything that we have assessed to date, the 
Commission continues to believe that there is no imminent risk 
from the continued operation of the existing U.S. nuclear power 
plants. At the same time, the NRC's assessment of Fukushima 
leads us to conclude that additional requirements should be 
imposed on licensees to increase the capability of nuclear 
power plants to mitigate beyond design basis natural phenomena.
    The Commission has approved the prioritization of the 
recommendations of a post-Fukushima NRC senior level task force 
into three tiers. Tier One consists of actions to be taken 
without delay; these actions are already underway. Tier Two is 
the next set of actions that can be initiated as soon as 
critical skill sets become available and pertinent information 
is gathered and analyzed. Tier Three recommendations require 
that the staff conduct further study or undertaken short-term 
actions first.
    Under Tier One actions, the staff has already issued three 
orders and requests for information from our licensees. Safety 
upgrades are well underway at many of our licensees. NRC work 
on Tier Two and Tier Three recommendations is beginning.
    The NRC staff has presented the Commission with its plans 
for addressing each of the Tier Three recommendations. Of 
course, as we evaluate those recommendations, we will engage in 
extensive dialogue with all the relevant stakeholders. The NRC 
staff has done an outstanding job of not only making progress 
addressing lessons learned from Japan but also continuing to 
ensure the safe and secure operation of all our existing 
license facilities. The Commission is dedicated to never losing 
sight of the fact that our effectiveness as a safety and 
security regulator depends first and foremost on the staff's 
hard work and dedication.
    Thank you for this opportunity to appear before you today. 
I would be happy to answer any questions.
    [The prepared statement of Ms. Macfarlane follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
   
    Senator Boxer. Thank you, Madam Chairman.
    Hon. Kristine Svinicki.

     STATEMENT OF HON. KRISTINE L. SVINICKI, COMMISSIONER, 
               U.S. NUCLEAR REGULATORY COMMISSION

    Ms. Svinicki. Thank you, Chairman Boxer, Chairman Carper, 
Ranking Member Barrasso, and members of the Committee, for the 
opportunity to appear before you today at this oversight 
hearing to examine NRC's implementation of recommendations for 
enhancing nuclear safety.
    I would like to begin by recognizing the commitment of the 
Commission's new Chairman, Dr. Allison Macfarlane, to forging a 
collegial relationship with each member of the Commission, 
consistent with her stated approach of maintaining open lines 
of communication with her colleagues on all matters facing the 
agency. I am appreciative of her views and perspectives, of her 
reaching out to me, our fellow Commissioners and members of the 
NRC senior executive service since her arrival. The tone she is 
setting is constructive, collegial, and a welcome opportunity 
to move forward in a positive manner on the many important 
matters before this Commission.
    The tragic events in Japan in 2011 cast the NRC's work into 
even sharper relief for the American public and once again 
remind us of the uniqueness of nuclear technology. Chairman 
Macfarlane has described in her testimony on behalf of the 
Commission the status of the many activities underway which 
comprise the NRC's response to the lessons learned arising from 
the accident at Fukushima. These actions have as their 
foundation the objective of increasing the capabilities of 
nuclear power plants to mitigate the effects of beyond design 
basis extreme natural phenomena.
    The NRC continues to evaluate its Tier Two and Tier Three 
actions and to engage with a diverse set of stakeholders on all 
of these activities. This work is carried out through the day 
to day efforts of the women and men of the NRC and along with 
the Chairman, as she has expressed, I appreciate their 
sustained commitment to advancing the NRC's mission of ensuring 
adequate protection of public health and safety and promoting 
the common defense and security.
    Chairman Boxer, Chairman Carper, and Ranking Member 
Barrasso, I appreciate the opportunity to give this statement 
and look forward to your questions.
    [The responses of Ms. Svinicki to questions for the record 
follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Senator Boxer. Thank you, Commissioner.
    Commissioner Apostolakis.

      STATEMENT OF HON. GEORGE APOSTOLAKIS, COMMISSIONER, 
               U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Apostolakis. Chairman Boxer, Ranking Member Inhofe, 
Chairman Carper, Ranking Member Barrasso, good morning.
    After a major accident like the one in Fukushima, it is 
natural and proper to focus on the engineering lessons learned 
and related actions to improve the safety of nuclear power 
reactors. As you know, the NRC is actively doing this. However, 
as more in-depth assessments of the accident are carried out, 
the significance of an additional contributor to the accident 
emerges--namely, safety culture.
    For example, the Chairman of the Japanese parliament's 
investigation commission on Fukushima lists a reluctance to 
question authority as one of the fundamental causes of the 
accident. Major accidents in the nuclear industry have involved 
organizational failures and/or poor human performance that in 
retrospect could be considered a result of a weak safety 
culture.
    In 1989 the Commission first published a policy statement 
to make clear the Commission's emphasis on a safety first focus 
with respect to the conduct of nuclear power plant operations. 
In June 2011 we issued a new safety culture policy statement 
that applies more broadly to all users of radioactive 
materials. We defined nuclear safety culture as ``the core 
values and behaviors resulting from a collective commitment by 
leaders and individuals to emphasize safety over competing 
goals to ensure protection of people and the environment.''
    It is recognized that core values cannot be regulated. 
However, we do have regulations and programmatic incentives to 
encourage behaviors that are consistent with a positive safety 
culture. For example, the NRC demands that licensee and 
contract employees be free to raise safety concerns without 
fear of reprisal, encourages self-identification of violations, 
and assesses licensee performance to identify root causes of 
violations that may indicate weaknesses in safety culture.
    To help with the overall efforts in this area, we have 
identified nine personal and organizational traits that we 
expect to see in a positive safety culture. For example, one 
trait is that issue potentially impacting safety are promptly 
identified, fully evaluated, and promptly addressed and 
corrected, commensurate with their significance.
    We have undertaken an extensive educational program to 
communicate to the licensees the Commission's vision regarding 
safety culture. I am pleased that the industry has also 
developed methods for assessing safety culture. Thank you.
    Senator Boxer. Thank you so much.
    Commissioner Magwood.

           STATEMENT OF HON. WILLIAM D. MAGWOOD, IV, 
        COMMISSIONER, U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Magwood. Thank you, and good morning, Chairman Boxer, 
Chairman Carper, Ranking Member Barrasso. Thank you for today's 
hearing, and thank you for your continued oversight. It has 
been very important to us.
    It has now been 18 months since the tragic events in Japan. 
Since that time, the Nuclear Regulatory Commission has 
conducted thorough reviews of U.S. nuclear power plants and our 
regulatory framework. We have begun the task of reassessing the 
flooding and seismic hazards facing each nuclear power plant in 
the United States and the ability of those plants to cope with 
severe natural events.
    We have taken many other actions that the Chairman has 
detailed in her written statement, including orders that 
require licensees to develop strategies to cope with site-wide 
beyond design basis disasters.
    After all we have learned from the disaster in Japan and 
from our work over the last year and a half, my confidence that 
U.S. nuclear power plants are being safely operated has only 
increased. Nevertheless, we are applying the lessons of 
Fukushima to establish and enhance the level of safety for U.S. 
plants. Given the consequences of nuclear accidents such as 
that experienced in Japan last year, we must do no less.
    Over the last year, I have met with regulators from around 
the world and visited several overseas reactors. Also, at 
Chairman Macfarlane's request, I recently led a U.S. delegation 
to a meeting of the Convention on Nuclear Safety attended by 63 
countries, which focused entirely on the lessons of Fukushima. 
Through these interactions, I have found that all countries are 
learning essentially the same lessons from last year's disaster 
and are taking essentially the same steps in response. We often 
use different terms and different methodologies, but the 
actions taken by the world's regulators are roughly the same. 
This has only increased my confidence that the actions we have 
taken are appropriate.
    And real action is being taken. I have visited eight 
nuclear power plants in the U.S. since we issued the post-
Fukushima orders earlier this year. Our licensees have 
purchased new equipment and devoted some of their best 
engineers to the task of responding to NRC orders. I have had 
valuable conversations with licensee staff about the 
installation of new equipment, the procedures and training that 
they are developing, and the ability of plant operators to deal 
with new requirements while still maintaining a firm grasp of 
the fundamentals related to the safe operation of their nuclear 
power plants.
    I am confident the steps we have taken have and will 
enhance nuclear safety in this country. With these actions 
underway, the Commission is now turning to complex policy 
matters that will determine the shape of U.S. nuclear 
regulation for years to come.
    These are very difficult matters. It has, therefore, not 
been the most gentle of welcomes for Chairman Macfarlane. 
However, I have appreciated the fact that she has created an 
atmosphere of open discussion and debate since joining the 
Commission. I believe this Commission, as it is constituted, is 
more than equal to the task ahead, and I look forward to 
working with my colleagues and with this Committee as we go 
forward.
    Thank you very much, and I look forward to your questions.
    [The responses of Mr. Magwood to questions for the record 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Senator Boxer. Thank you, Commissioner.
    Commissioner Ostendorff.

           STATEMENT OF HON. WILLIAM C. OSTENDORFF, 
        COMMISSIONER, U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Ostendorff. Thank you, Chairman Boxer, Chairman Carper, 
and Ranking Member Barrasso, for the chance to appear before 
you today.
    NRC continues to make strong, steady progress in 
implementing the lessons learned from Fukushima. At the same 
time, the Commission and our highly talented staff continue to 
be successful in performing other vital work.
    Last July the NRC Fukushima task force concluded that a 
sequence of events in the United States similar to that 
experienced in Japan is unlikely, and concluded that there is 
no imminent risk from continued operation of U.S. nuclear power 
plants. As I appear and testify before this Committee, I firmly 
believe those conclusions remain true today. Nevertheless, 
along with my colleagues, I continue to support our efforts at 
the NRC to strengthen our regulatory framework where necessary 
in response to Fukushima.
    Days before the March hearing before this Committee, all of 
my colleagues here to the right, we voted to approve the 
issuance of three orders for additional requirements to our 
licensees dealing with action mitigation strategies, 
containment vent systems, and spent fuel pool instrumentation, 
based on lessons learned from Fukushima. We also supported 
information collection and analysis efforts necessary to inform 
proper decisionmaking.
    In the intervening months, the NRC has continued to make 
significant progress. The staff has developed and issued final 
implementation guidance on the March orders. The staff has also 
initiated an advance notice of proposed rulemaking to the 
station blackout rule, as well as for integrating emergency 
response procedures. The station blackout rule remains on an 
accelerated schedule. We need to continue to aggressively 
pursue these efforts.
    Finally, I join my colleagues in warmly welcoming Allison 
Macfarlane to the Commission. Her collegiality and leadership 
have already greatly benefited not just the Commission, but our 
entire agency. She is off to a very, very strong start as 
Chairman, and we are grateful for that.
    I appreciate this Committee's oversight role and look 
forward to your questions. Thank you.
    Senator Boxer. Thank you.
    Let me just first say how much I appreciate every 
Commissioner's comments. I particularly want to home in on what 
Commissioner Apostolakis said. Because what he said was very 
critical. He said that after he's examined everything that 
happened in Japan--and tell me if I state this correctly, 
Commissioner--that your opinion is there was a lack of a safety 
culture, that people didn't speak up to authority there, and 
that was the main problem. Am I correct in summarizing it that 
way?
    Mr. Apostolakis. Yes, Senator, you are.
    Senator Boxer. I believe that is so important. It is what I 
wanted to hear. Because if you had said, well, it was one man 
who fell asleep on the job or some woman who walked out of the 
room, that would be one thing. But I'm assuming you speak for 
the Commission on that. Is there any Commissioner who disagrees 
with this? Speak up now. Does anyone disagree with this, that 
there was a lack of a safety culture? So there seems to be 
agreement.
    This is a breakthrough for us here. Because it just 
underscores the importance of your work. And this renewed 
commitment I hear from all of you, I think I hear from all of 
you, to move forward, not just with rhetoric, but very specific 
rules that Commissioner Ostendorff cited, for example, that we 
must move forward.
    And we are facing a situation in California, so I am going 
to ask you if you each got the packet I gave you of letters 
from my cities. Yes, you have all gotten that. I hope that I 
can count on you, perhaps working with the Chairman, to try and 
address these letters directly and hopefully all of you can 
agree and you can all sign the same letter.
    But I would urge you if you don't, then to write your own 
letter. Can I get, by showing me a nod, yes or no, that you 
will in fact work with the Chairman, or if you can't get a 
community letter together, work individually to make sure that 
those letters are answered? Thank you. Beautiful.
    OK, that is excellent. I will tell my cities. The city of 
Irvine is very, very sincere in their concern. They ask you to 
withhold permission to restart the plant until the NRC provides 
full assurance that Units 2 and 3 will not exhibit any of the 
current vibration, corrosion, and degradation problems during 
the remaining 10 years of license operation. So these are very 
hard letters; they are frightened over there, because there are 
so many people that live so close to this area. Again, I have 
said this before, but when they asked the sheriff there if 
there were to be, God forbid, some tragedy, how could people 
get away, she said, the highway, and you can't move on that 
highway, there is one highway, in rush hour.
    So we have to consider, in looking at this, the risks that 
we take if it is not all right. So I will ask unanimous consent 
to place all of these letters into the record.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. Also, the Committee to Bridge the Gap did a 
report on San Onofre, and they are very concerned. I am going 
to again ask you if each of you will commit to me to review 
this report. And after you read it, would you be willing to 
please meet with my staff so that we can discuss it? Because 
they go into-- this isn't rhetoric, this is page after page of 
specific worries. Can I get a reading from you all, would you 
be willing to meet with my staff after this? That is very good. 
Thank you for that.
    And again, if you all, if you meet first, and the Chairman 
can represent all of you, you don't all have to meet, but I 
want to make sure that I know where each of you is coming from 
on this. It is very key.
    Chairman Macfarlane, the media has quoted you as saying, 
``As a geologist, I know that geological knowledge is 
constantly changing and that understanding the cause of 
earthquakes is based on `a dynamic set of knowledge' which 
requires regular feedback and interaction.'' So what does this 
mean for safety licensing and license extension issues at 
nuclear plants? Do you believe it emphasizes the need to 
regularly review these risks and to consider this updated 
information in license and relicensing decisions?
    Ms. Macfarlane. I think actually it means that we should 
consider the updated information when it comes in, and that is 
the NRC's policy, to consider this information when it comes 
in.
    One of the recommendations from the----
    Senator Boxer. Well, when you say when it comes in, I want 
to take issue with that. Suppose you have a plant that in 6 
months is ready for the relicensing, and there is a study 
underway, it is not yet complete. I would hate to think that, 
you say, when it comes in, who is responsible for getting it 
in?
    Ms. Macfarlane. Thanks for the clarification. What I am 
referring to is, say, for example, if the USGS doesn't update 
the seismic hazard analysis, then that is something that we 
should be considering. We shouldn't wait until a plant applies 
for relicensing; we should consider it right away.
    Senator Boxer. OK, so I just want to be clear, because I 
want to know what my role is. So do you see your Commission as 
asking them to make these updated studies? Or do you just wait 
until they do it?
    Ms. Macfarlane. No, in fact we have just done an updated 
study in the central and eastern U.S. And we did that in 
conjunction with EPRI and the Department of Energy. We just did 
a reanalysis of the seismic hazard in the central and eastern 
U.S., and another one is in progress for the western U.S.
    Senator Boxer. We did it, meaning the NRC?
    Ms. Macfarlane. The NRC.
    Senator Boxer. Along with the USGS?
    Ms. Macfarlane. It wasn't with the USGS. USGS provided some 
input. But it was with the Department of Energy and the 
Electric Power Research Institute.
    Senator Boxer. So just that my mind is clear, what you are 
saying is in your view, before you relicense, you want the most 
updated information on earthquake safety, if there is a 
situation where there hasn't been a study in 10 years, you will 
move aggressively to get the latest information?
    Ms. Macfarlane. Certainly. I also want to point out that 
actually one of the recommendations from the Japan Near Term 
Task Force was to update and revise seismic hazards and other 
natural hazards, look at the updated information every 10 
years. So there is a recommendation for periodic review, and I 
support that.
    Senator Boxer. Good. That is excellent. Is there any 
dissent that that ought to be done before relicensure? Any 
dissent at all? This would be the moment. OK.
    I also think it is important to look at the demographic 
changes, how does the population change around the plant. 
Sometimes these areas have a boom in growth; sometimes they 
don't. But I just would urge you to look at all these factors.
    Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Chairman Macfarlane, obviously there is a lot going on. You 
have been there for 2 months now, I am sure you have assessed 
or tried to assess the internal capabilities and capacity of 
the staff to successfully complete the Tier One tasks.
    My question is can you assure us that the resources that 
you have aren't being diverted away from fully completing the 
Tier One recommendations because staff may be, as we say, there 
is a lot going on, working on other things like the revised 
waste confidence rule?
    Ms. Macfarlane. Yes, we are adequate there.
    Senator Barrasso. OK. Can you tell me what steps the 
Commission is taking to ensure that the addition of Tier Two 
and Tier Three requirements will be issued only after thorough 
analysis that Tier One recommendations have been thoroughly and 
successfully completed?
    Ms. Macfarlane. Tier One analyses are fairly far underway. 
There will be rulemakings that will come out of that. Now as 
resources and personnel are being opened up we will turn them 
to Tier Two and again, as the resources become available, the 
personnel become available, we will move them on to Tier Three.
    Senator Barrasso. You had mentioned also about ongoing 
rulemaking. Can you assure me that other extraneous guidance or 
other rules that are not vital to protecting public health and 
safety won't be forced upon nuclear power plants until they 
have fully completed the Tier One recommendations?
    Ms. Macfarlane. Until they have fully completed the Tier 
One recommendations?
    Senator Barrasso. Until they focus on that.
    Ms. Macfarlane. There are a number of issues that are 
before the NRC at the moment, and some are receiving priority, 
like the waste confidence issue. So we are prioritizing the 
issues that we feel are most important.
    Senator Barrasso. But you have the resources to work on 
Tier One in spite of some of the needs for resources for the 
other?
    Ms. Macfarlane. Yes, we do.
    Senator Barrasso. Great. I understand that the other 
Commissioners, in your view as to the adequacy of the time 
afforded to licensees to comply with the initial set of post-
Fukushima orders at the time that they have to comply, do any 
of you have concerns that the cumulative effects of complying 
with those orders by the time established could distract the 
licensees form other important safety issues? Are they going to 
have enough time to comply?
    Ms. Svinicki. Senator, I think of course we need to monitor 
closely whether or not there is any distraction of focus, that 
the operators need to be entirely focused on the safety of 
their facilities. So I'm not aware of any concern at the moment 
about their ability to carry out the post-Fukushima actions and 
operate safely. But I think that it is our obligation to watch 
that closely.
    Senator Barrasso. Anyone want to add to that?
    Mr. Magwood. Just very briefly, I agree with Commissioner 
Svinicki's comment on that. I would add that I think where we 
are today, I think things are quite good. I have talked to 
licensees about it; the situation is well under control. I 
think there is some concern in the licensee community about 
what might come down the road over the next few years. And I 
know that the staff is going to be watching very closely to 
make sure that we stage these things correctly so that the work 
can be done most effectively.
    Senator Barrasso. Thank you.
    Mr. Ostendorff. Senator, I would also agree with 
Commissioners Svinicki and Magwood in their response, and just 
provide that this is an issue that we are closely watching. We 
are having a lot of communications. We don't want to see safety 
significant issues not pursued because of distractions.
    Senator Barrasso. Great, thank you. Any additions?
    Mr. Apostolakis. I do agree with my colleagues. The 
schedule is very aggressive, it really is, especially for the 
seismic analyses that are required of the licensees in Tier One 
and the different analyses. So we have to appreciate that this 
is a very aggressive schedule.
    Senator Barrasso. Thank you.
    Chairman Macfarlane, in my home State of Wyoming there is 
an abundance of domestic uranium. Yet the permitting of these 
sites has met with a lot of bureaucratic delay and red tape. 
These sites provide good paying jobs for folks in our State and 
other States where uranium is found. How if at all is the 
licensing of uranium mining going to be affected given some of 
your statements about the lack of staffing for Tier Two 
recommendations and the 24-month suspension of licensing and 
relicensing for new nuclear plants?
    Ms. Macfarlane. I don't believe it will be affected.
    Senator Barrasso. Can you ensure the Committee that 
everything is on track, including the staff and the resources 
for the timely processing, then, of uranium mine leases?
    Ms. Macfarlane. Yes.
    Senator Barrasso. Thank you.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you so much, Senator.
    Senator Carper. Thank you.
    Let me just ask, who among you is, who on the Commission is 
closest to what is going on in Japan, in the prefecture, the 
areas around Fukushima? Can you give us an update on the status 
of the clean up there, how it is affecting the people there? 
Just give us a feel for the future of the nuclear industry in 
Japan. And the steps that they are taking to establish the kind 
of cultural safety that Commissioner Apostolakis was talking 
about. Who is best prepared to do that?
    Ms. Macfarlane. Well, let me give you my brief 
understanding, and then I might turn to Commissioner Magwood, 
because he spent a lot of time there and has many close 
colleagues there.
    My understanding is that the government of Japan is in the 
process of making some very hard decisions about the future of 
nuclear power in the country. And I think in the next few 
months, we will see where they are going. At the same time, 
they are in the process of standing up a nuclear regulator. I 
understand that that is moving forward. They are in the process 
of populating a commission similar to ours. And that should be 
done within, I imagine, weeks.
    In terms of the Fukushima site, they are moving forward 
with beginning to think about taking the fuel out of the Unit 4 
spent fuel pool, and stabilizing that building. Many of the 
events there, or activities there, will have to wait until some 
of these plants cool down and become less radioactive.
    Let me turn to Commissioner Magwood.
    Mr. Magwood. I can offer a few things. The Chairman's 
assessment is essentially correct.
    I would add a few things. First, at the Fukushima site 
itself, it is very difficult to overstate how difficult the 
work is going to be at that site. There will need to be new 
technologies, new methodologies created to enable them to clean 
this site up. And some of these technologies don't yet exist. 
So there is a long way to go.
    However, from all the information that I have seen, the 
site does seem to be stabilized. The work is proceeding. They 
are continuing to keep the reactors cool and to treat the water 
they are using to cool the reactors. So that situation is 
stable. But there is a long, long way to go.
    The establishment of the new regulator is something that, 
quite frankly, one might have liked to have seen happen much 
sooner. But they have reached that point now. They have 
identified commissioners parallel to ourselves who will lead 
this new agency. I have seen the names and the roster of the 
people; they look like good people. They look like good people, 
so that is very encouraging.
    And the situation in the country is very difficult. The 
government, the regulators, the operators, all lost the 
confidence of the public. We have seen that in the form of 
demonstrations in the streets of Tokyo. So the fact that the 
Japanese government is now faced with a very, very hard 
decision about the future of nuclear power is a direct 
consequence of that loss of faith. That is something that, once 
you lose it, it is very difficult to build it back. We are 
watching the situation very closely because we have so many 
connections with Japan. All we can do is wish them the best.
    Senator Carper. Thank you very much for those responses.
    I have a question, if I could, for the Chairman. I believe 
that our nuclear power plants are not required to submit their 
plans on how they intend to comply with the recent NRC orders 
until early next year. Is that true?
    Ms. Macfarlane. Sorry, I didn't hear the beginning of your 
question.
    Senator Carper. I believe that our nuclear power plants are 
not required to submit their plans on how to comply with the 
recent NRC orders until the early part of next year. My 
question is, is that true?
    Ms. Macfarlane. I think yes, it is the early part of next 
year, and the end of this year.
    Senator Carper. Since the NRC has issued the three orders, 
could you briefly---and we talked about this a little bit, I 
just want to come back to it again, but can you just briefly 
tell us whether any of the operators have begun to make changes 
to satisfy these new orders at their nuclear power plants, and 
if so, what problems, if any, have they run into so far?
    Ms. Macfarlane. Thanks for the opportunity. Yes, they have 
actually begun to institute changes. They have been buying 
additional equipment, additional diesel generators, in the case 
of a loss of offsite power, and additional pumps that they are 
staging around the sites themselves and offsite as well. And 
they are beginning their seismic and flooding walkdowns.
    When I have met with licensees I do ask them, what are you 
learning from your seismic and flooding walkdowns. So far they 
report that they haven't encountered any problems with this.
    Senator Carper. OK, good.
    Commissioner Svinicki, if you could, do you have any sense 
of the response so far from the public regarding these orders?
    Ms. Svinicki. Well, NRC has done extensive public meetings 
and outreach where we have explained the orders. We also had 
development of the guidance for their implementation that 
involved a series of meetings that were open to the public. I'm 
not aware of specific public concerns that were raised about 
how the orders were structured or the implementation guidance.
    Senator Carper. All right.
    We are going to have a second round, aren't we?
    Senator Boxer. Yes.
    Senator Carper. OK, thanks so much.
    Senator Boxer. Senator Alexander.
    Senator Alexander. Thanks, Madam Chairman. Excuse me for 
leaving. But I'm glad to have the chance to come back.
    Mr. Magwood, I'm trying to evaluate in my own mind, I 
mentioned earlier that Sweden has this combination of nuclear 
and hydro power. Other countries have a different mix, they 
have renewable energy, which is intermittent, like wind is 
intermittent. It blows some of the time, and you can't store 
it.
    I am trying to evaluate the effect of government policy on 
nuclear power of the government subsidies of wind power, for 
example. The government subsidy of wind power is 3.4 cents per 
kilowatt hour before tax. In the Midwest, the wholesale cost of 
electricity is less than that, 2.8 cents. So basically the 
government is paying the wind producer more than it costs to 
buy and sell electricity, so I suppose you could slip a little 
cash under the door of the utilities and pay them to take the 
wind power. But then what would they do with their nuclear 
plants?
    How easy is it to turn a nuclear plant off and on? Let's 
say the wind blows at night but doesn't blow during the peak 
hour, and you need the reliable power? How easy is it to do 
that?
    Mr. Magwood. It is not. It is not. Nuclear plants are not 
designed to load follow, which is the term that is used to 
describe what you are talking about. Nuclear plants are 
designed to operate 24 hours a day, 7 days a week, for a year 
and a half to 2 years at a time without stopping. And they work 
best in that sort of operation. There are discussions that the 
new small modular reactors might be able to do some of this 
load following. But for our current fleet of nuclear plants, 
they are not designed to operate that way.
    Senator Alexander. So we shut them down on purpose every so 
often for maintenance, right, what is that, 18 months or so?
    Mr. Magwood. It depends on the plant, but usually it's 
either 18 months or 24 months.
    Senator Alexander. So in a mix of energy generation, if you 
have a nuclear plant, your goal would be top rated, all the 
time, except when you close it down for maintenance or for some 
safety problem?
    Mr. Magwood. Correct.
    Senator Alexander. You mentioned the small modular 
reactors. Madam Chair, is the NRC planning to continue 
budgetary support for small modular reactor licensing 
activities?
    Ms. Macfarlane. The NRC is doing some pre-application 
activities, pre-design certification activities in terms of 
small modular reactors. We were informed by the industry, we 
were expecting our first small modular reactor design 
certification applications to come in about a year from now. So 
we are ready to meet that need.
    Senator Alexander. Can you assure me that--we have worked 
pretty hard and came to an agreement to try to fund to assist 
with this project with the corporations over a 5-year period of 
time. Senator Feinstein and I are ranking on the Appropriations 
subcommittee that does that. Can you assure me that the money 
that we allocated for the small modular reactor program will be 
used for that purpose and not some other purpose?
    Ms. Macfarlane. Yes.
    Senator Alexander. Good.
    What impact does the court's waste confidence ruling have 
on your ability to move forward with licensing a small modular 
reactor?
    Ms. Macfarlane. At this point in time it should have no 
impact. The waste confidence decision issues that we have dealt 
with so far indicate that licensing activities will continue.
    Senator Alexander. Would you agree with me that--or with 
many--that whether you are for or against Yucca Mountain, that 
we need to move forward as rapidly as we responsibly can to 
identify a repository for used nuclear fuel?
    Ms. Macfarlane. Wholeheartedly.
    Senator Alexander. And as far as so-called consolidation 
sites, the President's commission recommended that we move on 
parallel tracks to create some consolidation sites for the 
purpose, for example, of moving used fuel from reactors that 
have closed. Would you agree that it would be, do you agree 
with that recommendation to move along parallel tracks?
    Ms. Macfarlane. As a member of that commission, yes, I do 
endorse that view.
    Senator Alexander. So I stated it more or less accurately?
    Ms. Macfarlane. Yes, you did. Thank you.
    Senator Boxer. Restate what you said, what the Chairman 
said was accurate. Restate that.
    Senator Alexander. That we, the first part of my question 
was, whether you are for or against Yucca Mountain, do you 
agree we need to move forward to find a new repository for used 
nuclear fuel. And she said yes.
    The second part of my question is regarding what I call 
consolidation sites, places where used fuel from the 104 sites 
might be moved on its way to the final repository site. And the 
question was, do you agree with the recommendation of the 
Commission that while we are looking for a long-term 
repository, we also should be looking for one or more 
consolidation sites, which could be used, for example, to move 
fuel from reactor sites where the plant is closed and the fuel 
is still there.
    Ms. Macfarlane. Yes, and I said that as a member of that 
commission, who signed that report out and endorsed that view, 
I still endorse that view.
    Senator Boxer. Thank you. Do you need more time?
    Senator Alexander. No, I am through. But I want to make 
sure----
    Senator Boxer. Yes, I just wanted to make sure I understood 
what the Chairman was saying, that she thinks whether you are 
for or against Yucca; in my view Yucca is dead. But we went 
through this the last time, and I am not going to--most of you 
told me it was dead the last time.
    But we do--as we look for another site, your point is, 
should we, is it wise to look for interim sites, regionally?
    Senator Alexander. Yes.
    Senator Boxer. Before the final site is selected.
    Senator Alexander. Yes. And we have had a lot of discussion 
about whether to call them interim or not, because in a sense 
they are not interim. Because the stuff might go there and then 
go to the final site. But then some other stuff might go to the 
consolidation site. But yes, that is correct.
    Senator Boxer. OK. Well, we will definitely be looking at 
the Blue Ribbon Commission's recommendations. Thank you for 
that.
    I just was going to say that one of the things that is of 
grave concern to some States is the moving of this very toxic 
fuel through their communities. So we will definitely be 
looking at whether it is best to just let the waste stay where 
it is in the safest possible way and then move it once, not 
move it twice. So that is something that I am very open to 
discussing. But I know in California there was a lot of concern 
about movement, because certain States won't let the waste go 
through the States. It was one area where California was just 
going to get everything. There was a lot of concern in my 
State. But this is definitely something we are going to look 
at.
    I am going to ask one question about the general issues, 
but then I am going to focus in on my California issues. So for 
those people who will find that a little bit State-centric, I 
will wait until the end to do that. But the one question I did 
have, it sort of piggy backs on Senator Barrasso. Does the NRC, 
Madam Chairman, have the resources to implement all the task 
force's recommendations, including Tier Three, before the 2016 
goal?
    Ms. Macfarlane. I believe we do.
    Senator Boxer. OK. That is good to hear.
    So now I am going to ask some questions that are related to 
the experience that we are going through in California with the 
shutdown of San Onofre.
    Chairman Macfarlane, the tubes on steam generators act as a 
barrier to the release of radioactivity that could endanger 
workers and the public if the tubes were to burst. Nuclear 
facilities have other systems that if they fail could also 
release radioactive material. Does the NRC automatically 
require a plant to amend its license if the plant makes a major 
structural change to one of these systems? Would you support 
the NRC examining whether plants should go through a license 
amendment process when they make such major structural changes 
to a plant?
    Ms. Macfarlane. The NRC has an oversight program that 
validates the day to day safety of the site. In terms of the 
steam generators, it is generally a licensee's business 
decision whether or not to change a generator. I will note that 
55 out of 69 pressurized water reactors in this country have 
actually changed their steam generators.
    Senator Boxer. I guess my question, because it is sort of 
two questions. The first question is, does the NRC 
automatically require a plant to amend its license if the plant 
makes a major structural change to one of these systems?
    Ms. Macfarlane. If a steam generator is changed, under our 
5059 process, we allow licensees to change their steam 
generators without a license amendment, as long as they assure 
us that they have not introduced any accident scenarios, 
additional, different accident scenarios into the system. And 
we don't do a design review of the steam generators.
    Senator Boxer. My concern is you have this plant that made 
this huge change. And it has led to a shutdown. So would you 
support the NRC examining whether plants should go through a 
license amendment process when they make such a major 
structural change? Because right now you've said they don't 
have to under your rules. Would you take a look at that, you 
and your fellow Commissioners?
    Ms. Macfarlane. I think we certainly, and the staff will 
certainly, definitely--they usually do this kind of thing after 
a situation like this, that we have at the San Onofre plant. We 
do reflect.
    And it wouldn't happen right away; we would have to 
continue through the process. But we will look and see what 
lessons we can learn from this and whether we do need to 
implement any changes. So we will consider this.
    Senator Boxer. Well, let me humbly suggest that this not be 
something that is put on the back burner, Commissioners. 
Because what is happening now in California is we have lost an 
important source of power, very important source. And I have to 
compliment Commissioner Magwood when he said, what happens when 
the community loses faith. We can't let that happen. And I will 
tell you, it has been terrible on the utility. They feel 
terrible about what is happening, and they spent a fortune. How 
much did they spend, do you remember? It was hundreds of 
millions, several hundred million dollars were spent. And there 
is a problem.
    So I would like to ask you to not give me an answer today, 
but at our next oversight hearing I am going to ask if you 
would consider examining the lessons learned already. We 
already know what happened. We already know that they didn't 
have to get a new license to make structural change. And we 
already know what happened. It was terrible for the people in 
the community; it was terrible for the utility. And we still 
don't know exactly why all this occurred. But I don't think you 
should wait.
    And in respect, I would say out of concern for others in 
our nation, including the utilities themselves, the business 
people themselves, everybody, because it is already clear that 
they should have had your expertise take a look at this change. 
And maybe they wouldn't have found anything. Maybe your great 
staff wouldn't have found anything.
    But I have a lot of confidence in them, as you do, and you 
all do, that they might have said, just a minute, this is a 
problem.
    So I am going to ask you not now to commit to anything, 
because I want you to think about it; maybe I am being too 
cautious. But I feel, we know enough about San Onofre. How many 
months has it been closed down already? Since the beginning of 
the year. And this is--I forget the percentage of power that 
comes out of this, not insignificant. It is pretty significant 
in the area. So we are missing that, 10 percent maybe, and 
nuclear is 20. So in that area, it could be as much as 10 
percent. So this is serious business.
    And I think it underscores--I would say on this Committee, 
I am one of the people that really is pressing hard every 
minute to make sure there is safety. Because I do agree with 
what Senator Alexander said, for sure, that if people--he says 
every time we have a meeting, people get more confidence in 
nuclear power. I would say if they were listening to this 
Committee hearing, they would. I don't think it is true about 
all the meetings we have had in the past. But I think we are in 
different ground now, with different leadership now; we are in 
difference circumstances. But somehow I feel we are all pulling 
for the same thing. This is important.
    And I just would like to see us not sit back when we have 
already had this problem in California; it is real. And I hope 
all of you talk about it at your next meeting, when you talk to 
each other. Maybe there is something you could put in place 
right now, an oversight review to see when somebody is making a 
real change that you get to have your good staff look at it. 
They may not catch a problem, but they may well catch a 
problem.
    I will turn to Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chair. I just have one 
follow up, continuing on what you were talking about, different 
leadership, all pulling for the same thing at this time.
    To Chairman Macfarlane, there seems to be early evidence of 
a renewed collegial environment at the NRC. We really do hope 
that continues. There were a number of issues raised by the 
Inspector General's report related to the previous Chairman 
that the Commission hasn't really been specifically asked to 
address. But I would like to ask a couple of questions.
    Since your arrival, have you taken steps to address issues 
raised by the Inspector General about the previous Chairman's 
tenure? For example, have you initiated discussions, perhaps, 
to identify changes to the internal procedures of the 
Commission, to address the sharing of information, which was a 
big concern in the Inspector General's report? What kind of 
agreements have you reached?
    Ms. Macfarlane. Thanks for that question.
    I, as Chairman, have been talking to everyone, my fellow 
Commissioners, certainly, to the staff, to the managers, 
management in the staff, to all hands meetings, and expressing 
my values of collegiality and collaboration. I am very 
dedicated to making sure that all information is available to 
everyone, that everyone is informed of all issues in a timely 
fashion. I think I have been working pretty hard to make sure 
that that happens.
    Senator Barrasso. I think one of the issues raised, not 
about you, but previously, is that other Commissioners were 
perhaps not as involved in conducting the agenda setting 
process, for meeting the voting process, deadlines, those sorts 
of things. Have you been working together on those things as 
well?
    Ms. Macfarlane. Yes, we have. And we had an agenda setting 
meeting a few weeks ago. I think it went fairly well. I think 
we came to some decisions as a group there.
    So I think so far it is proceeding well. I invite you to 
ask my colleagues.
    Senator Barrasso. I will do just that, then. Anyone want to 
make any comments about these sorts of things?
    Ms. Svinicki. Senator Barrasso, I think the simplest way to 
put it is that Chairman Macfarlane outlined how she intended to 
approach leadership under her chairmanship, the principles that 
she would follow, and she has done so. It is just that simple. 
We did have the agenda session that she just commented on. I 
remarked to her either in the session or afterwards that I felt 
it was a more collegial and open discussion as a Commission 
than we have had in some time. So I complimented her on that.
    Senator Barrasso. Anyone else want to add?
    Mr. Apostolakis. Well, the environment now is great. I 
think this is to the Chairman's credit.
    Mr. Magwood. I meet with groups of the staff quite often. 
It is interesting how often members of the staff will ask 
questions of that nature. The response I have taken to giving 
to staff is that things are very normal.
    Mr. Ostendorff. I agree with my colleague, Senator 
Barrasso, and would say, these are not just words from Allison 
Macfarlane's perspective, they are actions. We have seen 
concrete steps that she has taken from day one to radically 
change the environment.
    Senator Barrasso. That is good to hear.
    Thank you, Madam Chairman.
    Senator Boxer. Madam Chairman, I just got a copy of a 
letter that was sent before you took over from the staff that 
says, there are no resources included in the fiscal year 2012 
budget and fiscal year 2013 congressional budget justification 
for Tier Three activities. So what makes you think you have 
adequate resources? Has there been a change? Have you gotten 
more resources? Or do you disagree with the staff on that 
point?
    Ms. Macfarlane. No, I believe that we do have adequate 
resources that will take us through 2013. We will not be 
beginning all activities for Tier Three in 2013. So we will 
have adequate resources.
    Some of these resources are personnel, and there are a 
limited number of personnel who are working on some of the Tier 
One and Tier activities who will not be freed up until after 
they are completed those activities. For example, 
seismologists. There are a limited number of seismologists in 
this country.
    Senator Boxer. You responded before that you would be able 
to do Tier Three in your response to me before. Your staff here 
before you got there, July 13, 2012, said there are not 
sufficient resources. So will you do me a favor? Will you 
please respond to me in writing? I don't want to throw this at 
you. This is from Richard Borchardt, Executive Director for 
Operations. He is sitting right here. I think we need an 
answer, because your answer does not comport with his letter.
    Ms. Macfarlane. Sure. We would be happy to respond in 
writing.
    Senator Boxer. I would like to be assured that you can do 
Tier Three with the resources and how you disagree with this 
assessment.
    And also, I think Commissioner Magwood really said 
something important before the House Energy and Commerce 
Committee in July. He was asked, what design and manufacturing 
flaws with San Onofre's steam generators were not detected 
before the generators were turned on. And you said, ``So when 
you have an outcome that is not satisfactory you have to take a 
look at the process. I think we should take a look at the 
process and see if there is something we can improve.'' And I 
appreciate that.
    So I want to bring that to the Chairman's attention. 
Because I didn't ask you today for your answer. But it seems to 
me you could avoid a lot of these problems, when there is a 
major change to a plant, before the utilities invest hundreds 
of millions of dollars, there really should be a new reg. So I 
hope you will take a look at that, and we will discuss it the 
next time.
    Chair Macfarlane, in my opening statement, I talked about 
the fact that there is an open meeting scheduled in the San 
Onofre community for October. Is that firm, and is that 
happening, and who do you expect will be there leading that 
open process?
    Ms. Macfarlane. The meeting is set for October 9th. We are 
ironing out the final details of that. And the way that the 
meeting will go, it will be in two parts. There will be a 
roundtable discussion with 10 or 12 representatives from a 
variety of groups. And then the second half will be a public 
comment period.
    Senator Boxer. And who are the Commissioners who will be 
there?
    Ms. Macfarlane. The Commissioners will not be there. We 
will have--it will be facilitated by two NRC staff people. 
There will be the Region 4 regional administrator, I believe, 
will be there. And there will be a representative from my 
office as well. I am very dedicated to ensuring that the agency 
communicates very well with the public.
    Senator Boxer. OK, so who will brief all the Commissioners 
about the results of that hearing? Who will do that? Whose 
responsibility would that be?
    Ms. Macfarlane. The staff is responsible for doing that. 
And we will have either somebody from Region 4, the Region 4 
office, who was at the meeting come. For example, yesterday the 
regional administrator from Region 4 came by my office to give 
me the latest update on the San Onofre facility. And I asked 
him specifically what was going to happen at this meeting. So 
we are in very close communication on this issue.
    Senator Boxer. So can I just ask Commissioners as a group, 
would you commit to being briefed by the staff, all of you, not 
to go but to be briefed by the staff? Did everybody say yes? 
Yes. Good.
    The other point I made in my opening statement is that I 
want to make sure that your investigation into the problems has 
been completed and that you are convinced that it is safe to 
operate that plant. Do I have your commitment that that is your 
aim, that you will not restart that plant until you believe it 
is safe?
    Ms. Macfarlane. Yes, absolutely.
    Senator Boxer. And that all the Commissioners, if any 
Commissioner has a problem with the safety, that you will 
listen to those Commissioners as well?
    Ms. Macfarlane. Absolutely.
    Senator Boxer. OK. Let's see, who's next? Jump in here, 
folks; help me out.
    Senator Carper. I want to thank both of my colleagues for 
yielding their time to me.
    [Laughter.]
    Senator Carper. That will give me a few more minutes to 
practice saying Apostolakis. That is one of the things I said 
to the Chairman, Mr. Apostolakis, is that I think I have served 
long enough in the Senate that I can pronounce your name 
easily. And names like Svinicki as well, and some of the easier 
names. But I am getting there.
    This is for Commissioner Apostolakis. I am just going to 
ask if you and Commissioner Ostendorff, first of all, I just 
want to say, Commissioner Ostendorff spent a lot of years in 
the Navy in submarines, trying not to be discovered, being very 
stealthy. I spent a lot of time in the Navy in airplanes, 
trying to find those stealthful submarines, not so much ours as 
the Russians.
    But when I heard you talking about a culture of safety, 
Commissioner Apostolakis, it reminded me very much of what we 
did in the Navy. You had it in the submarines, we had it in 
airplanes, a culture of safety. Every day, focus every day on 
safety, safety, safety. And the most important thing we ever 
did in airplanes was not just to find submarine or fly missions 
off the coast of Vietnam or Cambodia. The most important thing 
we were doing was to take of safely, fly safely, come back and 
land safely. That was it. It was always made clear. So I am 
very pleased with that culture of safety.
    One of the first hearings I ever chaired, Madam Chairman, 
on our Subcommittee on Nuclear Safety and Clean Air, was a 
culture of safety. I am pleased to hear that it is going 
strong.
    I want to ask Commissioner Apostolakis and Commissioner 
Ostendorff, could each of you just briefly tell us what you 
have heard. We talked about it just a little, but what you have 
heard from the nuclear industry and other stakeholders 
regarding NRC's letters requesting information. I just want to 
come back and talk about that. What have you heard from the 
industry and other stakeholders regarding the NRC's letters 
requesting information? Do you believe we will receive the 
needed information in a timely manner, in a timely manner for 
the NRC to meet its 2016 deadline?
    Mr. Apostolakis. I have not heard any significant 
complaints. As I said, there already is an aggressive schedule. 
From what I understand, I believe the Tier One items except 
possibly the order on the spent fuel pool instrumentation are 
safety significant issues. And they will respond, again, within 
the 5 years of the goal. So I have not heard any complaints. It 
is very different for Tier Three, though.
    Senator Carper. OK, thank you.
    Mr. Ostendorff. Senator, I would just add that these 
requests for information that went out in March are significant 
requests, very comprehensive, very detailed. They are 
challenging, I think, for some of the licensees, but they are 
important for us to make good decisions. So I think the 
industry is working very hard to comply with the required 
information in a given time period. I think we are watching it 
closely, but we are in good shape at this stage.
    Senator Carper. Thanks.
    Can I come back to you, Madam Chairman? Currently, the NRC 
is addressing, I believe, what we all believe to be the highest 
concerns, and those recommendations are considered Tier One. 
Can you just give us a little more information on what you 
believe will be the expected time lines for the lower priority 
but still important recommendations?
    Ms. Macfarlane. As I think I said earlier, some of the Tier 
Two activities are already underway for us. And there are a 
couple of the Tier Three activities that we are already 
beginning to look into. In terms of a time line, right now we 
don't have a specific time line, especially for the Tier Three 
activities. Again, it is a matter of resources and personnel 
and having the personnel be freed up to move on to the next 
activity.
    Senator Carper. OK. I have one for Commissioner Svinicki 
and Commissioner Magwood. The NRC recently decided to suspend 
granting new and renewed regular licenses, so that the NRC 
could address the Federal court ruling regarding waste 
confidence, something we have touched on earlier here today. 
The NRC also decided that this process could take up to, I 
think, 24 months, if I am not mistaken. Which new reactor or 
renewal applications might be affected coming up between say 
now and 2014? How does the NRC intend to handle these license 
applications? Are either of you--either Commissioner Magwood or 
Commissioner Svinicki, are either of you concerned about what 
this issue might mean for future licensing of either new or 
existing nuclear power plants?
    Ms. Svinicki. Thank you, Senator Carper. After the court's 
decision, the Commission determined a path forward. Since the 
court invalidated one of the legal underpinnings of the 
issuance of licenses that did require that the Commission no 
longer--we no longer had the legal basis to issue final 
licensing decisions. Since the reviews themselves can take 
multiple years, the Commission did direct that the safety and 
environmental reviews on other issues could continue in the 
interim.
    And in a parallel track, the Commission directed the NRC 
staff to undertake the analyses that the court in its decision 
found were missing or lacking. So we are working to remedy and 
substantiate the areas that the court's decision found lacking. 
That process, we have estimated, will take 24 months.
    Senator Carper. OK, thanks.
    Commissioner Magwood, do you want to add or take away?
    Mr. Magwood. I agree with Commissioner Svinicki's comments. 
I would simply add that as I look at things that are 
approaching the licensing space over the next several years, 
obviously there are some things that will be delayed because of 
this. But I don't believe there is any major disruption to 
either plant operation or consideration of new nuclear power 
plants that will result, if we get this done in a 24-month 
period.
    Senator Carper. Can I have one more, please? I want to pick 
on Commissioner Apostolakis again. I think Chairman Macfarlane 
mentioned hydrogen control in her opening remarks; did you? 
Well, you should have.
    Ms. Macfarlane. They are in the written statement.
    Senator Carper. I just want to ask Commissioner 
Apostolakis, her reference to a hydrogen control in her opening 
remarks--her opening statement, not her remarks--could you 
explain for those who might be watching or listening to this 
hearing who might not be familiar with this topic, what does 
the NRC actually mean by hydrogen control? What is the current 
practice in the United States? And what is the practice in some 
of the other countries who currently use nuclear power? Just 
give us a primer, call it hydrogen control 101.
    Mr. Apostolakis. Well, hydrogen is flammable. So we should 
not allow the accumulation of hydrogen gas anywhere, because 
then you will have an explosion or a big fire. And I believe we 
have a regulation, 50.44, that deals with that issue. And the 
intent is to prevent the accumulation of hydrogen or if there 
is hydrogen, to do something about it before it reaches 
critical mass.
    I don't know what other countries are doing; I am sorry.
    Senator Carper. Does anybody else want to comment on that? 
No?
    Commissioner Ostendorff.
    Mr. Ostendorff. Certainly the buildup of hydrogen, as 
Commissioner Apostolakis noted, is a concern. In my submarine 
experience, you don't want the hydrogen to get above 8 percent, 
and the safety margin factor, you are never allowed to get 
above 4 percent assuming you only detect it by a factor of 2 
error. Just as one example. So we had carbon monoxide hydrogen 
burners to remove the hydrogen from the atmosphere in the 
submarine, primarily associated with the ship's battery.
    There are hydrogen recombiners that continually burn 
hydrogen in some of our nuclear power plants that are always 
functioning to keep it below a certain threshold. Some of the 
hydrogen that we are talking about from the explosions at 
Fukushima are associated with Zircaloy reactions. When that 
Zircaloy fuel became uncovered, high heat situation generated 
hydrogen. And that was--the inability of the plant to vent that 
hydrogen led to explosions. This has been a primary emphasis we 
have had on the reliable venting orders we put out in March for 
our boiling water reactors Mark I and Mark II.
    Senator Carper. That was good. That was like hydrogen 101 
and 102. I thought that was very good, thank you.
    Thanks, Madam Chair. I see we have been joined by my 
neighbor from Maryland.
    Senator Boxer. Yes, we are going to call on him right now.
    Senator Cardin. Let me thank Senator Boxer and Senator 
Carper both for your extraordinary leadership on this issue and 
related issues. I have been to Chernobyl, so I have seen first-
hand the consequences of human error which could have been 
avoided, and obviously what happened in Japan tested the 
extremes of a natural circumstance. We appreciate very much the 
type of preparations that we are all doing to try to make sure 
that regardless of the severity of an external factor, we have 
safe nuclear facilities.
    The circumstances in Japan clearly tested our capacity and 
remind us that we have to manage these risks as best we can. In 
the State of Maryland we have Calvert Cliffs, which is located 
less than 50 miles from here by air. Around 3.3 million people 
live within the 50 miles of Calvert Cliffs. So we have a direct 
interest, not only in the State of Maryland, but as people who 
work in the Washington area, to make sure that all precautions 
are taken.
    I want to ask first, Madam Chair, if my entire statement 
could be made part of the record.
    Senator Boxer. Without objection.
    [The prepared statement of Senator Cardin was not received 
at time of print.]
    Senator Cardin. I want to question another potential danger 
that was recognized several decades ago and the Commission took 
steps then by issuing regulations, which it is my understanding 
may to have been fully implemented, and that is the risk from 
fire at a nuclear plant and the impact it could have on its 
generation capacity to prevent the appropriate cooling of the 
nuclear material.
    Can you bring me up to date as to where we are on proper 
protections at our nuclear facilities from the danger of fire?
    Ms. Macfarlane. Sure, thank you very much, Senator, for 
that question. It is nice to see you again.
    Senator Cardin. It is good to see you. Welcome to the 
Committee as a confirmed Chairman.
    Ms. Macfarlane. Thank you.
    In terms of fire, the staff has issued a fire protection 
standard and is working with licensees to implement the 
standard. Many of the licensees are actively involved in the 
standard. I invite my colleagues to elaborate if they would 
like to.
    Senator Cardin. Also, if you could comment, because I 
believe there were regulations issued several decades ago, it 
is my understanding that not all the power plants are 
necessarily in full compliance with those requirements.
    Ms. Macfarlane. That is correct.
    Mr. Apostolakis. Fire was identified as a significant 
contributor to risk a long time ago, 30 years maybe or more. 
And of course the fire at Browns Ferry in the 1970s sensitized 
people to it. And at that time the first regulation was issued, 
the so-called Appendix R to the Code of Federal Regulations, 
which was very deterministic and based on experience. For 
example, cable trays should have 20 feet of empty space between 
the fire barrier and so on.
    And that Appendix R turned out to be very difficult to 
implement, and a lot of the licensees complained. I believe we 
reached something like granting about 1,000 exemptions. And any 
time you have 1,000 exemptions that means the rule is not very 
good.
    So then the National Fire Protection Association, a group 
that participated in that, issued a standard which is now 
called NFPA-805, which is a combination of probabilistic and 
deterministic methods more modern than Appendix R. But it is 
voluntary. And I believe, last time I heard, 55 licensees, or 
around there, had agreed to do this. Some of them have 
submitted already their reevaluation of the fire risk. Our 
staff is reviewing those submissions. And I think it is 
primarily licensees that felt that implementing Appendix R for 
them was very difficult, or for whatever reason they didn't 
want to do it.
    Senator Cardin. I would just make this observation to this 
Committee. You have a responsibility to do everything you can 
for safety, and this Committee has a responsibility on 
oversight, and we work together. The tragedy you referred to I 
believe was in 1970. So it is far removed from the current 
thought process.
    If there were a fire at a nuclear plant that put us at 
risk, I would expect we would be having a hearing today on the 
first risks. I don't want to have to have that hearing. I want 
to make sure that we have in place the precautions that are 
reasonable to mitigate or eliminate this risk factor. I would 
just ask that you keep this Committee informed as to how that 
review is taking place.
    It just disturbs me that there are nuclear power plants 
that are not in compliance with a regulation, or that there are 
1,000 waivers that have been issued. You are absolutely right, 
we need compliance, we need regulations that provide the 
protection and are achievable.
    I would just ask, Madam Chair, that this Committee be 
advised as to the progress that you are making in this area.
    Senator Boxer. Thank you, Senator.
    Madam Chairman, the weeks after Fukushima, I wrote to the 
NRC encouraging you to work transparently, so that information 
gathered during your reviews of nuclear plants is made 
available to the public. The NRC has created a Web site. It is 
called Plant Specific Actions in Response to the Japan Nuclear 
Accident.
    Will you agree to keep that site up to date until all of 
the plants have implemented the NRC's new safety requirements?
    Ms. Macfarlane. Yes.
    Senator Boxer. Is there any objection from other colleagues 
on that point? Excellent. That is important.
    Chair Macfarlane, in February I wrote to the NRC about 
safety issues at San Onofre plant, including the rapid 
deterioration of tubes that carry radioactive water. I asked 
the NRC to comprehensively review and address safety concerns 
at the plant.
    In July the NRC issued an interim report that you were 
augmenting inspection of the San Onofre plant. What is the 
NRC's understanding of the causes of the problems at San 
Onofre, and how will the NRC address all of the safety issues 
at the plant?
    Ms. Macfarlane. The NRC is still working to understand the 
causes. We are waiting for the licensee to respond to our 
confirmatory action letter.
    Senator Boxer. Explain what you mean by confirmatory 
action.
    Ms. Macfarlane. When the problems occurred with the plant, 
we issued, with agreement from the licensee, a confirmatory 
action letter saying that they would shut down the facility and 
work on understanding the root causes of this problem and then 
develop a way forward. So we are awaiting their response to 
this letter, where they tell us their understanding of the root 
causes of this problem.
    Senator Boxer. And they have not sent such a letter?
    Ms. Macfarlane. No. And we understand in talking with the 
licensee, I talked with them 2 days ago, they came by and 
visited, they told me that they will be sending this letter by 
the end of the first week in October.
    Senator Boxer. Have you heard that they want to startup 
parts of this plant?
    Ms. Macfarlane. I understand that there are two reactors 
there, Unit 2 and Unit 3. I understand that Unit 3 will likely 
be shut down for some time, unspecified. I know that the 
licensee is planning to remove the fuel from the reactor at 
Unit 3 this month.
    So Unit 2 is the reactor that is in play at the moment, and 
for which they will respond to the confirmatory action letter 
with their explanation of what caused the problem with the 
steam generator tubes, and a way forward.
    Senator Boxer. It is my staff's understanding that 2 and 3 
have similar problems. Is that your understanding?
    Ms. Macfarlane. Yes, there are similar problems with the 
tubes. The tubes in 3 had more problems, more significant 
damage than the tubes in 2.
    Senator Boxer. But it is your understanding they have 
similar problems?
    Ms. Macfarlane. Yes.
    Senator Boxer. I am assuming, because the rumors we are 
hearing is that they plan to start up in October. But you 
haven't even gotten the letter back?
    Ms. Macfarlane. No. No, that is not correct.
    Senator Boxer. So you can say unequivocally that Unit 2 is 
not going to be restarted by October?
    Ms. Macfarlane. Yes, absolutely. When we receive that 
letter from them, then we will--it will take us some time, I 
can't tell you how long, it will take longer than days and 
weeks, it will be on the order of months, to understand whether 
they have understood well enough the root causes of the problem 
and to understand whether--what their plan forward is, if it is 
going to provide the adequate safety.
    We will not let them start up unless we are absolutely 
convinced that it is safe to operate.
    Senator Boxer. Well, that is music to the ears of the 
people in California. I am very appreciative. Is there any 
dissension to that from the Commissioners? Well, that is very 
important.
    Chairman Macfarlane--I am sorry, did you wish to comment?
    Mr. Ostendorff. Thank you, Chairman.
    I just wanted to add one comment. I agree with everything 
Chairman Macfarlane said. But I wanted to highlight, this is a 
very complex, technical problem. When one of your staff joined 
me on a visit to the plant on July 22nd, we spent several hours 
there looking at what they are trying to do to bracket this 
flow instability problem. I just want to highlight, in echoing 
Chairman Macfarlane's response, this is a very complex problem. 
It is one we have not seen before at plants in the United 
States. And it is one that is going to require significant NRC 
staff technical evaluation, depending on what the NRC receives 
from the licensee, and we don't know what this is at this 
stage.
    Senator Boxer. Well, I so appreciate the caution here. And 
it makes me feel comfortable that you are doing everything to 
make sure this is safe. That is why I so believe that doing 
what Commissioner Magwood suggested in front of the House, that 
we take another look at your regulations. Because what a shame 
that this money was invested in a way that turned out to be so 
wrong for the plant. Hundreds of millions of dollars. And that 
could have been--maybe it could have been stopped, had the NRC 
staff taken a look at this.
    We don't know all the details, but it is a puzzle. Again, 
as I think about everything that has happened since Fukushima, 
almost the irony of this situation, and I know that the mindset 
of the Commissioners, I believe this today, is that this 
culture of safety has to be the centerpiece of what you do 
before you restart this plant. It just means everything. I 
think at the end of the day, it is going to give confidence to 
people going forward.
    So I have just, you will be happy to know, one last 
question. Chair Macfarlane, the Union of Concerned Scientists 
has reported that the reactors at Diablo Canyon and San Onofre 
are out of compliance with the NRC's fire safety regulations 
and have been for some time now. The Union of Concerned 
Scientists believes the lack of NRC enforcement of fire safety 
regulations is one of the biggest threats to nuclear safety in 
this country. That is a very strong indictment they are making.
    Why does the NRC allow plants to keep operating out of 
compliance with these fire safety rules? That is what the Union 
of Concerned Scientists says. Do you agree with that? Do you 
allow plants to keep operating out of compliance with the NRC's 
own fire safety regulations?
    Ms. Macfarlane. Thank you for the question, and I 
appreciate the concern that was raised by the Union of 
Concerned Scientists. Every plant in this country is either in 
compliance with the fire safety regulations or they have taken 
approved or compensatory actions.
    Senator Boxer. So the NRC has provided them with an 
alternative to the regulations, is that correct?
    Ms. Macfarlane. I am sorry, can you repeat the question?
    Senator Boxer. So the NRC has provided an alternative to 
the regulations and some of them are operating without being in 
full compliance with the regulations? And you have given them 
an alternative?
    Ms. Macfarlane. We have given them potential alternative 
actions that they can take to make sure that they are safe in 
terms of a fire. Let me ask Commissioner Apostolakis to 
elaborate.
    Mr. Apostolakis. As I said earlier, Appendix R was the 
original regional regulation that led, because of its 
inadequacies, to this National Fire Protection Association 
standard. The standard is voluntary. About 55 licensees, again, 
if my memory serves me, have agreed to enter the standard. And 
once they enter, they cannot get out.
    Now, as they find what may be inadequacies according to the 
Appendix R, when they are implementing NFPA-805, there is 
enforcement discretion. We don't penalize them for it, as long 
as they tell us what they are going to do about it and by when. 
These are minor things, and usually there are compensatory 
measures.
    Senator Boxer. There are what? I am sorry.
    Mr. Apostolakis. There are compensatory measures to account 
for these weaknesses. So it is not that they don't comply with 
the regulations. There is this period where they would be 
allowed to take action to correct whatever weaknesses they 
have.
    Senator Boxer. I am confused, I have to admit. Forgive me.
    So my understanding is that the NRC has fire safety 
regulations. Are these regulations or are these just an idea 
that you are putting out for power plants, if they want to do 
it they can do it, and if they don't want to do it, they don't 
have to do it?
    Ms. Macfarlane. No, there are regulations in place.
    Senator Boxer. So they are not voluntary?
    Ms. Macfarlane. No.
    Senator Boxer. So I don't know how many are on this list 
here, but there must be 10, 20, 30, 40, how many? Seventeen 
States, about 31 reactors that are not in compliance. What I am 
hearing from you is you give them--they come forward before you 
with other ways to get you before there. And how much time do 
you give them to comply?
    Ms. Macfarlane. To comply with the regulations?
    Senator Boxer. Yes.
    Ms. Macfarlane. Let me turn to Commissioner Apostolakis, or 
Commissioner Magwood.
    Mr. Magwood. I was going to try to give an illustration 
that might clarify this a bit. Part of the rule, the regulation 
that fire protection falls under what is called Appendix R in 
our lexicon. Under Appendix R, for example, we look for the 
separation of, say, electric control cables. Control cables 
would have to be a certain distance apart or be protected by 
some barrier.
    An alternative to actually moving the cables further apart 
might be to station a person at the location or to have a 
person check every half an hour at that location to make sure 
there is no fire taking place. That is a compensatory measure. 
That is the sort of thing a lot of licensees are doing. Those 
measures can stay in place for quite some time.
    Senator Boxer. I understand. Well, from what I know about 
my own, the reactors in my State, there are some personnel 
problems there by the handful. Somebody is supposed to be some 
place they are not; somebody falls asleep.
    I just want to say, this is concerning. And I don't think 
you are all that concerned, all of you, and it is OK, it is a 
disagreement. I feel you need to get these plants up to code, 
in terms of, we would not allow this, would not allow this in a 
lot of areas. I will tell you something, I served as a county 
supervisor, and you had better pay attention to fire 
regulations.
    I was just at the Democratic Convention, which was great, 
in parentheses. And you should have seen the fire marshal 
there, seriously. Whoa. Get out of the aisle; I don't care if 
you are on CNN, MSNBC, you get out of the aisle. They told 
Senators and everybody else.
    This isn't something we should be giving them compensatory 
ways to do it, because then you are putting it in the charge of 
a human being. And we know human error occurs in the best of 
people.
    So I guess what I would like to do is--not today, because 
this is kind of the first I have really read of this, and I 
thank you for this, I would like to work with all of you to 
figure out a way, A, I think the people in these communities 
ought to know that their nuclear power plants are not in 
compliance. Let them start to write letters and say, hey, get 
into gear here, and fix it up.
    I have problems. I have problems in California. I have my 
two power plants on here. We have enough problems.
    So I will tell you that I am going to work with my 
colleagues on both sides of the aisle in sending you a letter 
in short order that I think we need transparency, I think you 
ought to chastise these folks by just having a Web site and 
say, hey, go up and see who is in compliance; let's have the 
good list.
    This is the thing that always gets me. There are so many 
people who are doing the right thing here. And then they look 
over, and they are spending the money making the capital 
improvements, and then you have people who are putting it off 
until something happens, and then they will have an excuse. 
Then they will say, well, the NRC said we could compensate, 
blah, blah, blah.
    And I don't want to get you into that situation. So not 
today, but in the next few weeks, we will do a letter with some 
of our colleagues, hopefully on both sides, that just says, 
please bring the attention of this failure to comply with your 
own regulations to the people. Because my sense of it is the 
minute my city councilmen know and my mayors know, they are 
going to be on the phone to PG&E in the one case and SoCal in 
the other, saying hey, hey, we don't accept this. This is not 
right.
    So anyway, I don't want to end on a down note at all. I 
think we can work on this, and I really thank the staff here 
for all their work on this. We will get this done.
    But I just want to say in general, I am really happy to see 
the cooperation, the respect. You may have disagreements 
between you, and you know what? That is fine. That is part of 
what America is about. I don't expect you all to agree. That is 
why I keep asking, do you agree, do you not. Don't be fearful 
to disagree with one another. I think it is healthy, too.
    But I am so pleased to see the working relationship that is 
beginning to develop here and that personalities are meshing 
better. That is extremely important. We all want the same 
thing, we want safety first. You do, I do, everybody does, 
whether you love nuclear power, whether you hate wind power, 
wherever you are coming to.
    President Obama has an all of the above strategy. So it all 
has to be safe. I think most people have an all of the above 
strategy, and it all has to be safe. Whatever--whether it is 
natural gas or nuclear, solar, whatever.
    So thank you, thank you, I hope you feel as I do that we 
are all on the same page for now. We may not always be, but we 
are now. My people in California are counting on you. You stand 
in such an important place in their lives right now. I mean it, 
because I don't have the expertise that you are going to have 
on this California plant. I am going to monitor the public 
meeting. My staff will be out there.
    And I really want to thank my staff--all the staff here, 
both sides of the aisle--for helping us get ready for today. We 
stand in adjournment, and we will see you soon. Thank you very 
much.
    [Whereupon, at 11:55 a.m., the Committee was adjourned.]

                                 [all]
</pre></body></html>
